CERTIFICATE OF COMPLIANCE
No. 19K.G.S., INDIVIDUALLY AND AS GUARDIAN AND NEXT FRIEND OF BABY DOE, A MINOR
CHILD
Petitioner,
v.
Facebook, Inc.,
Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the Petition in the
above captioned case contains 8,393 words, excluding the parts of the Petition that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 17, 2020.

/s Ruthanne M. Deutsch
Ruthanne M. Deutsch

